       WORKFORCE INVESTMENT ACT
     YOUTH OPPORTUNITY PROGAM AUDIT

Summary of Educational Services and Vocational Training
          Provided to Out-of-School Youth




                                    Office of Inspector General
                                    Office of Audit
                                    Report No. 06-03-001-03-390
                                    Date Issued:
                                                      Table of Contents
                                                                                                                                            Page

ACRONYMS ................................................................................................................................... ii

EXECUTIVE SUMMARY................................................................................................................ 1

BACKGROUND AND PRINCIPAL CRITERIA............................................................................. 3

OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................................. 5

RESULTS........................................................................................................................................... 8


     1. Most of the Youth in our Sample Did Not Receive Educational or Vocational
        Training Services.................................................................................................................... 8

     2. Youth Ages 17 and Over: 59 Percent of Dropouts Received Educational Services; 26
        Percent of Youth with High School Diplomas/GEDs/Some College Received
        Vocational Training or Educational Assistance ............................................................... ....18

     3. Most Sampled Youth Had Been Enrolled Long Enough To Be Actively Participating
        in Some Training Activities. ................................................................................................ 21

     4. Performance Data Available to ETA Could Be Unreliable .................................................. 23

RECOMMENDATIONS ................................................................................................................. 28

Appendix A – OIG’s Classification of Activities for Sample of 176 Out-of-School Youth ........... 29

Appendix B – OIG’s Flowchart Illustrating the Determination of Out-of-School Youth ............... 30

Appendix C – OIG’s Classification of Activity Group Combinations ........................................... 31

Appendix D – ETA’s Response to the Draft Report........................................................................ 33




                                                                     i
             ACRONYMS

CFR   Code of Federal Regulations
DOL   Department of Labor
EC    Enterprise Community
ETA   Employment and Training Administration
EZ    Empowerment Zone
FY    Fiscal Year
GED   General Equivalency Diploma
MIS   Management Information System
OIG   Office of Inspector General
OSY   Out-of-School Youth
WIA   Workforce Investment Act




                      ii
                                EXECUTIVE SUMMARY
Thirty-six communities across the country received $465 million of Youth Opportunity (YO)
program grants during the period March 2000 to June 2002 to provide comprehensive youth
services, including education and job training opportunities, for young people living in some of the
Nation’s poorest areas where they are most at risk of joblessness.

A March 2001 OIG audit of the Job Training Partnership Act youth program1 found that youth who
received occupational (vocational) skills training (OST) had higher post-program earnings than those
who did not receive OST. Further, those who completed OST training had higher
post-program earnings than those OST participants who did not complete the OST. The prior youth
program’s audit results lead the OIG to conclude that vocational skills training is a significant factor
in youth’s attainment of their employment and earning goals. Furthermore, in July 2001 the
Secretary of Labor expressed her desire for more educational components in the Youth Opportunity
programs. Therefore, our audit objective was to determine what educational services and vocational
skills training Youth Opportunity grantees provided to out-of-school youth.

For 12 selected grantees, we sampled a total of 240 individuals from the population of youth who
were reported to us as being out-of-school youth who were enrolled in the program as of September
30, 2001, and had received some service as of December 31, 2001. However, 33 individuals did not
meet the program definition for out-of-school youth, leaving a sample of only 207 youth.

Approximately 62 percent (128 of 207) of the out-of-school youth we sampled received no
educational or vocational training activities -- including 31 who received no services at all. Because
31 of the 207 out-of-school youth in our sample received no services, we were only able to analyze
specific services the Youth Opportunity program provided to the remaining 176 enrolled out-of-
school youth.

Of these 176 participants, 120 (68 percent) received work readiness or work related services,
whereas 79 (45 percent) received educational activities and vocational training. Since 53 of the 120
participants that received work readiness or work related services also received educational and
vocational training, 67 (38 percent) received work related services without receiving any educational
or vocational training. While most sampled youth had been enrolled long enough to be actively
participating in some vocational training or educational activities, most did not.

Of the 176 participants who received some services, 168 (95 percent) were 17 years of age or older when
enrolled. The grantees provided educational activities to a majority (59 percent) of the dropouts 17 years
of age and older. Of those individuals ages 17 and older who had already completed high school, received
a General Equivalency Diploma (GED), or attended some college prior to being enrolled, the majority (60
percent) received work readiness activities (work experience, on-the-job (OJT) training, or pre-
employment/world of work), as opposed to vocational training or educational assistance (26 percent).

While conducting this audit, we identified inconsistencies in the records grantees provided related to
out-of-school youth enrolled in the program. The scope of our audit did not include any direct
verification of the accuracy of management information system (MIS) data. However, during the
1
 See OIG Audit Report Number 06-01-001-03-340, Job Training Partnership Act, Title II-C Youth,
Out-of-School Program Performance Audit, issued March 19, 2001.
                                                   1
course of our work, we were provided participant information that suggested that the performance
data available to ETA could be unreliable. For example, the reliability of the data we were provided
in response to our requests for the grantees’ universe of enrolled, out-of-school youth varied
significantly among the 12 grantees we examined. We concluded:

       •   It was impracticable to sample a consistently defined universe.

       •   About 26 percent of the 240 participants in our original sample were not enrolled, out-of-
           school youth.

       •   ETA’s definition of enrollment is complicated and unworkable.

Recommendations:

We recommend the Assistant Secretary for Employment and Training:

   !"consider strengthening the educational and vocational training activities for high school
     graduates;

   !"establish procedures to terminate those out-of-school youth classified as active, but who are
     not participating in any program activities and have not expressed an interest in continuing in
     the program;

   !"assess the accuracy of performance reporting from Youth Opportunity grantees and develop
     procedures to correct inaccurate reporting that is identified; and

   !"correct definitions in the MIS and propose legislative changes during the WIA
     reauthorization process, if needed, to provide a more straight forward definition for out-of-
     school youth who are expected to be served by the Youth Opportunity grantees.

ETA accepted the report’s four recommendations and expressed a determination to have a strong
educational component in its Youth Opportunity Grants. ETA responded that the report leaves
unsaid that most of the youth who did not receive educational or vocational training services did
receive work-related activities, and that we ignored the value of the work-related components of
these grants and the value of work as a path towards careers for non-college youth. We did not
ignore the work-readiness components of the program, but our audit objective was to evaluate
education and training services. Our presentation of results is unchanged from the draft.




                                                  2
                BACKGROUND AND PRINCIPAL CRITERIA

The Youth Opportunity Grant Program

Thirty-six communities across the country received Youth Opportunity (YO) program grants as part
of a planned 5-year, $1.375 billion effort authorized by section 169 of the Workforce Investment Act
(WIA). These grants were awarded to 24 urban communities, 6 Native American entities, and 6
rural areas designated as either enterprise zones or enterprise communities. The grants are to
provide comprehensive youth services, including education and job training opportunities, for young
people living in some of the Nation’s poorest areas where they are most at risk of joblessness.

A total of $445 million was awarded to the 36 grantees for the first 2 years of the planned 5-year
grant program. This $445 million was for the period March 2000 through June 2002. These 36
grantees reported approximately $200 million of expenditures through December 2001.

The Youth Opportunity grant program emphasizes a youth development approach to serving young
people. Sites must offer the comprehensive services outlined in WIA, as well as establish one or
more Youth Opportunity Community Centers that provide a centralized location for young people to
participate in training and development activities. In addition, grantees must provide 2 years of
follow-up services to participants.

All individuals ages 14 through 21 who reside in the designated areas identified in the grants are
eligible to receive services.

Principal Criteria

The Final Rule for the Workforce Investment Act, 20 CFR Part 664, Subpart H, published in the
Federal Register August 11, 2000, provided for grants to be awarded through a competitive selection
process with awards distributed equitably among urban and rural areas considering the rate and
number of people in poverty and the quality of proposals received.

Entities are eligible for Youth Opportunity grants if they serve communities designated as an
empowerment zone (EZ) or enterprise community (EC) under section 1391 of the Internal Revenue
Code of 1986, or an area designated by the Governor as a high poverty area in states with no EZ or
EC eligible areas.

The Secretary, through ETA, negotiates performance measures with each Youth Opportunity grantee
based on information contained in each grantee’s application. The Youth Opportunity grants’
performance indicators are the same as provided in WIA sections 136(b)(2)(A) and (B).




                                                  3
For youth ages 19 through 211, these performance indicators include:

    !"entry into unsubsidized employment;
    !"retention in unsubsidized employment 6 months after entry into the employment;
    !"earnings received in unsubsidized employment 6 months after entry into the employment;
      and
    !"attainment of a recognized credential relating to achievement of educational skills.

For youth ages 14 through 182, the performance indicators are:

    !"attainment of basic skills and, as appropriate, work readiness or occupational skills;
    !"attainment of secondary school diplomas and their recognized equivalents; and
    !"placement and retention in postsecondary education or advanced training, or placement and
      retention in military service, employment, or qualified apprenticeships.

In Audit Report Number 06-01-001-03-340 (issued March 19, 2001), “Job Training Partnership Act,
Title II-C Youth, Out-of-School Program Performance Audit,” the OIG reported that youth who
received occupational (vocational) skills training (OST) had higher post-program earnings than those
who did not receive OST. Furthermore, those who completed OST training had higher post-program
earnings than those OST participants who did not complete the OST. This prior youth program’s
audit results lead the OIG to believe that vocational skills training is needed to achieve the
employment and earnings goals of the Youth Opportunity program.




1
  Of the 176 enrolled out-of-school youth in our sample who received services, 112, or 64 percent, were ages 19 through
21.
2
  Of the 176 enrolled out-of-school youth in our sample who received services, 64, or 36 percent, were ages 14 through
18.

                                                           4
                       OBJECTIVE, SCOPE, AND METHODOLOGY
Audit Objective

Our audit objective was to determine what educational services and vocational skills training Youth
Opportunity grantees provided to out-of-school youth. This report does not indicate that
participants do not benefit from other non-educational or non-vocational skills training. However,
those program services were not the central focus of our audit; educational services and vocational
skills training were.

Audit Scope and Methodology

We chose a judgmental sample of 12 of the 36 Youth Opportunity grantees (see page 7 for a list of
the 12 selected grantees) and selected a random sample of 20 youth at each grantee from the
population of youth who were reported to us as being enrolled in the program as of September 30,
2001, and having received some service as of December 31, 2001. Consequently, our original
sample included 240 individuals we considered as enrolled (i.e., completed the administrative
registration process and commenced the first service) out-of-school youth. This audit covered the
first 16 months of program operations.

From this sample of 240 youth, 33 did not meet the program definition for out-of-school youth, and
31 of the remaining 207 participants had not received any assessment or service that would qualify
these individuals as being enrolled. Therefore, we analyzed specific services the Youth Opportunity
program provided to 176 out-of-school youth.

Procedures for Collecting Information

We collected information for analysis, including the education prior to, and activities after, Youth
Opportunity enrollment for sample youth. The case files for sample youth were reviewed and some
available youth were interviewed to supplement the information in the case files. Furthermore, we
discussed the data obtained from the case files with grantee management and prepared statements of
facts for the grantees’ response. The grantees’ responses were considered in preparing the draft
report.

Classification of Youth Opportunity Activities

We categorized the 176 sample youth’s program/support activities through December 31, 2001, into
13 activities (10 activities and 3 support/incentive categories)3. Because our objective was to
determine the extent to which educational and vocational skills training were provided to a random
sample of out-of-school youth, we grouped the 13 activities into four activity groups -- vocational,
educational, work readiness, support/incentives -- to determine whether the activities were
considered educational or vocational skills training.

Our assessment of the extent to which educational and vocational skills training were provided did
not include an effort to compile the full extent of participation (i.e., attendance), levels of
3
    See appendix A for the number of OSY who participated in each of the 13 activities.

                                                             5
achievement, or program outcomes for sample youth. Rather, we only examined documents or
consulted with staff sufficiently to determine those activities in which the youth participated. An in-
depth audit would be required to examine all the attendance records at the variety of grantee and
service provider classes or compile the achievement certificates awarded. Additionally, it was
premature, at the time of our audit, to examine youth outcomes for a 5-year program.

Because we did not identify the number of hours or days of training provided to youth, the
discussions in this report regarding the number/percentages of enrollees who participated in
activities should not be used to imply any threshold amount of training/services for the youth. We
did not distinguish between any specified hours or days of training; rather, our scope included
determining the number of sample youth who had any evidence of participation in the 13 activities
we assessed.

Performance Reporting

The scope of our audit did not include any direct verification of the accuracy of MIS data. However,
during the course of our work, information came to our attention suggesting that MIS data are not
reliable and performance data for OSY has been misreported. Section 4 of the Results section of this
report provides details regarding the variations that we encountered in obtaining the universe of OSY
enrollees, as of September 30, 2001, who participated in a program activity by December 31, 2001.

Management Controls and Compliance with Laws and Regulations

The scope of our audit excluded any specific examination of management controls used in the
administration of the Youth Opportunity program. Our audit considered certain laws and regulations
as discussed on page three of this report.

Providing an opinion on management controls and compliance with laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

Our performance audit was made in accordance with generally accepted government auditing
standards.




                                                   6
The 12 selected Youth Opportunity locations included the following:

                                                                                      1st & 2nd Year
                Urban Sites                                                            Funding ($
                                                                                        Millions)4
                Birmingham/Jefferson County Job Training
                                                                                                    $ 10.0
                 (City of Birmingham, Alabama)
                PIC of San Francisco, California                                                      14.0
                Capitol Region Workforce Development Board
                                                                                                      14.0
                (City of Hartford, Connecticut)
                Louisville and Jefferson Counties Workforce
                                                                                                      14.0
                Investment Board (City of Louisville, Kentucky)
                Economic Development Industrial Corp., Boston
                                                                                                      12.0
                (Boston, Massachusetts)
                Worksystems Inc., Portland
                                                                                                      10.0
                (City of Portland, Oregon)
                City of Cleveland, Ohio                                                               14.0
                Alamo Workforce Development Board
                                                                                                      22.0
                (San Antonio & Bexar, Texas)
                Seattle – King County Workforce Development
                                                                                                        9.0
                Board (Seattle, Washington)
                                                                       Total                       $ 119.0

            Rural (including Native American) Sites
               Southeastern Arkansas Economic Development
                                                                                                     $10.0
               (Chicot and Desha Counties, Arkansas)
               Imperial County Office of Employment & Training
               (Brawley, Calipatria, Niland and Imperial Counties,                                    10.0
               California)
               Navajo Nation (Navajo Nation Arizona, New
                                                                                                      20.6
               Mexico & Utah)
                                                                       Total                        $ 40.6




4
  All sites except for Birmingham and the Navajo Nation have now received 3rd year funding, equal to 75 percent of the
initial award.

                                                           7
                                           RESULTS
1. Most of the Youth in our Sample Did Not Receive Educational or Vocational Training
   Services

Approximately 62 percent (128 of 207) of the out-of-school youth we sampled did not receive
educational or vocational training services, including almost 26 percent (54 of 207) who also did not
participate in any work readiness activities or receive any supportive services.

   A. Many youth the grantees purported to be enrolled had not been provided any services.

In evaluating services to these 207 participants, we discovered that 31 of the 207 participants
(15 percent) were not actually enrolled in the program. To be enrolled, participants must have
completed the administrative registration process and commenced the first service. As of December
31, 2001, more than half of these 31 individuals had applications that were more than 6 months old,
and over 90 percent had applications over 90 days old, but they had not received any services. Since
these youth were not provided any services, not even an assessment, they were not enrolled
according to ETA’s criteria for the management information system.


   B. More out-of-school youth received work readiness and work related services than
      received educational and vocational training.

Because our audit objective was to determine what educational services and vocational skills
training Youth Opportunity grantees provided to out-of-school youth, we analyzed specific services
the Youth Opportunity program provided to the remaining 176 enrolled, out-of-school youth.

For youth ages 19 through 21 the Youth Opportunity program performance indicators include:

   !"entry into unsubsidized employment;
   !"retention in unsubsidized employment 6 months after entry into the employment;
   !"earnings received in unsubsidized employment 6 months after entry into the employment;
     and
   !"attainment of a recognized credential relating to achievement of educational skills.

For youth ages 14 through 18 the performance indicators are:

   !"attainment of basic skills and, as appropriate, work readiness or occupational skills;
   !"attainment of secondary school diplomas and their recognized equivalents; and
   !"placement and retention in postsecondary education or advanced training, or placement and
     retention in military service, employment, or qualified apprenticeships.

The Youth Opportunity program performance indicators are essentially focused on outcomes –
employment or educational attainments – that would appear to require educational or vocational
activities if the program is to be successful.



                                                  8
Yet, over 55 percent (97 of 176) of the out-of-school youth in our sample who had received services
did not participate in educational activities or vocational training, including 13 percent (23 of
176) who also did not participate in any work readiness activities or receive any supportive services.
The percentages of urban and rural youth who did not participate in vocational or educational
training activities are similar.

       !"56 percent of the urban youth (71 of 127)
       !"53 percent of the rural youth (26 of 49)

Of the 97 participants who did not receive any educational or vocational training,

       !"30 (31 percent) also did not participate in any work readiness activities
       !"67 (68 percent) participated in work readiness activities:

           •    215 -- work experience (paid or unpaid)
           •    1 -- OJT
           •    45 – only pre-employment activities

We did not include internships (3 cases), OJT (1 case), and preapprenticeship training (3 cases) as
vocational training. We classified internships as either paid or unpaid work experience and
separately identified the limited amount of OJT and preapprenticeship training as work readiness
activities. We do not consider these three service categories equivalent to formal vocational skills
training programs. Regardless, all three sampled youth that had preapprenticeship training also
received educational activities or vocational training; therefore, they were already counted as
receiving educational/vocational skills training.

The most frequent services we classified as a work readiness activity was a variety of pre-
employment training services. Examples of preemployment services include:

       !"job readiness
       !"help with resume preparation
       !"life skills
       !"job search

In order to evaluate the type of training and/or services the youth received, we categorized activities
into four groups as shown in Figure 1, below:




5
    17 of the 21 also participated in preemployment activities.

                                                                  9
                       Activity Group               Activity Classification
                       Educational Activity         Enrolled in High School
                                                    Tutoring
                                                    Remedial Education
                                                    College
                       Vocational Activity          Voc. Training Assistance
                       Work Readiness Activity      Unpaid Work Experience
                                                    Paid Work Experience
                                                    On-the-Job Training (OJT)
                                                    Preapprenticeship
                                                    Preemployment Training
                       Support & Incentives         Stipend
                                                    Incentives
                                                    Supportive Services
                                                 Figure 1

This report presents program activities for urban and rural youth separately to highlight differences
in the level of participation in specific activities.

Figure 2, on the next page, compares the percentage of urban and rural youth participating in the 13
specific activities we analyzed. Figure 2 shows only four activities in which more than 25 percent of
the youth were involved, of which only one activity was an educational activity (remedial
education).




                                                   10
                           Comparison of Activities between Urban and Rural Youth
                          (Percentages in relation to number of Urban or Rural Youth)

                                                                           63%
            Pre-Emplmt                                                    60%
                               0%
            Pre-Apprent        2%
                               2%
                   OJT         1%
                                                                   51%
              Paid WE               8%
                                         14%
            Unpaid WE          1%
                                         12%
               Voc Tng                   12%
                                                 25%
              Spt Svcs                                         46%
                                  6%
             Incentives          4%
                                     14%
               Stipends          6%
                                   10%
                College         3%
                                               20%
             Remed Ed                                  32%
                                4%
               Tutoring        2%
                                  8%
               Enrl HS            5%


                      0%             20%             40%          60%            80%    100%
                                                       Urban      Rural

                                                       Figure 2

As shown in figure 2, above:

   !"Both rural and urban sites extensively used soft skills training such as pre-employment/world
     of work training.

   !"Both rural and urban sites provided limited use of vocational training.

   !"Rural sites used work experience (work readiness as opposed to specific vocational training)
     more than urban sites.

   !"Urban sites used supportive services more than rural sites.




                                                         11
         1) Services to Urban Out-of-School Youth

Of the 127 urban youth participants6 we evaluated:

    !"71 youth (56 percent) did not receive educational or vocational training activities, of
      whom:

             o 16 (12.6 percent) also did not participate in any work readiness activities or receive
               any supportive services

             o 6 (4.7 percent) did not receive any service other than support/incentives

    !"56 youth (44 percent) received educational or vocational training activities, including:

             o 41 with educational training only
             o 9 with vocational training only
             o 6 with educational and vocational training

    !"82 youth (64.6 percent) participated in work readiness activities, including;

             o 33 (26.0 percent) with educational or vocational training
             o 49 (38.6 percent) without educational or vocational training

             o 44 (34.6 percent) with support/incentives
             o 38 (29.9 percent) without support/incentives

Figure 3, on the following page, presents a snapshot of the level of participation in each of the 13
specific activities we analyzed. The activities for the urban OSY are illustrated here to allow
comparison with the activities for the rural OSY shown in the subsequent table (figure 4).




6
   See Appendix C for a table showing the number of urban youth in each activity group – vocational, educational, work
readiness, and support/incentives. A youth is counted only once in the table, allowing for the display of combinations of
activities.

                                                           12
                              Specific Activities by Activity Group
                                 For 127 Sample Urban Youth

                 Vocational Activities                                             Educational Activities



                                                                         120
                                                                         100
                                           15                             80                       40
     100                                                                  60
                                                                          40             4                     3           6

       50                                                                 20
                                                                           0
        0                                                                      College Remed Tutoring              HS
                    Voc Tng                                                              Ed




             Work Readiness Activities                                              Support / Incentives


      120
                    76                                                 120
      100
       80                                                              100                   58
       60                                                               80
       40                                    10                         60                                 5               8
                             3        1                1
       20                                                               40
        0                                                               20
            Pre- Pre-         OJT     Paid Unpaid                        0
            Empl Appr                 We    WE                                 Spt Svcs Incentives Stipends


                                                           Figure 3

The most prevalent activities, based on at least 10 percent of the 127 valid OSY enrollees
participating in the activities,7 were:

    !"Remedial classes (40 youth, or 31.5 percent);
    !"Vocational training (15 youth, or 11.8 percent);
    !"Supportive services (58 youth, or 45.7 percent); and
    !"Preemployment/world of work training; (76 youth, or 59.8 percent).



7
 See figure 2 for details of the levels of participation for the 13 activity categories in our compilations based on the
number of participants for whom information was available.

                                                             13
        2) Services to Rural Out-of-School Youth

Of the 49 rural youth8 we evaluated:

    !"26 (53 percent) did not receive any educational or vocational training activities, including
      7 youth (14.3 percent) who also did not participate in any work readiness activities or receive
      any supportive services.

    !"23 (47 percent) received educational or vocational training activities, including

             o 17 with educational training only
             o 5 with vocational training only
             o 1 with educational and vocational training

    !"38 (77.5 percent) received some type of work readiness activity, including:

             o 16 with educational training only
             o 3 with vocational training only
             o 1 with educational and vocational training

Figure 4, on the following page, shows the number of rural youth -- similar to figure 2 for urban
youth -- participating in each of the 13 specific activities by activity group.




8
  See Appendix C for the number of rural youth involved in each activity group. As with the urban youth, a youth is
counted only once in the table, allowing for the display of combinations of activities.

                                                         14
                            Specific Activities by Activity Group
                                For 49 Sample Rural Youth

              Vocational Activities                                        Educational Activities


                                                                50
                                                                40
     50                               6                         30
                                                                                         10
     40                                                         20              5                          4
                                                                                                  2
     30
                                                                10
     20
     10                                                             0
                                                                        College Remed Tutoring        HS
      0
                 Voc Tng                                                          Ed




          Work Readiness Activities                                          Support / Incentives


     50
                 31                                            50
     40                                25
                                                               40
     30
                                                               30                   12
     20                                         7                                                          7
                              1                                20                             3
     10                 0
                                                               10
      0
          Pre-   Pre-   OJT       Paid Unpaid                  0
          Empl   Appr             We    WE                              Spt Svcs Incentives Stipends


                                                    Figure 4

As figure 4 shows -- like the urban sites -- most youth at rural sites did not participate in education or
vocational training. Figure 4 also shows -- unlike the urban sites – that rural sites emphasized
subsidized work experience.




                                                      15
For rural sites, the most prevalent activities, based on at least 10 percent of the 49 valid OSY
enrollees participating in the activities,9 were:

    !"Remedial classes (10 youth, or 20.4 percent)
    !"College classes (5 youth, or 10.2 percent)
    !"Paid work experience (25 youth, or 51 percent)
    !"Unpaid work experience (7 youth, or 14.3 percent)
    !"Supportive services (12 youth, or 24.5 percent)
    !"Stipends (7 youth, or 14.3 percent)
    !"Pre-employment/ work of work training (31 youth, or 63.3 percent)
    !"Vocational training (6 youth, or 12.2 percent)

Because we did not identify the number of hours or days of training provided to youth, the
percentages provided above should not be used to imply any threshold amount of training for the
youth. We did not distinguish between any specified hours or days of training; rather, our scope
included determining the number of sample youth who had any evidence of participation in the 13
activities we assessed.

ETA’s Response to Our Draft Report and OIG’s Conclusion

ETA responded that most of the youth who did not receive educational or vocational training
services did receive work-related activities and that our results as presented imply that Youth
Opportunity Grants are not fulfilling their mandate unless all out-of-school youth are receiving
education or vocational training as opposed to work experience or job placement. ETA believes our
results ignore the value of the work-related components of these grants and the value of work as a
path towards careers for non-college youth. We disagree.

Based on the audit’s objective, our results focus on the extent of educational and vocational skills
training provided to out-of-school youth. As stated on page 5 of this report:

           Our audit objective was to determine what educational services and vocational
           skills training Youth Opportunity grantees provided to out-of-school youth.
           This report does not indicate that participants do not benefit from other
           non-educational or non-vocational skills training. However, those program
           services were not the central focus of our audit; educational services and
           vocational skills training were. [Emphasis added.]

We did not ignore work-readiness activities. In fact, Figures 3 and 4, unchanged from the draft,
present the work readiness activities for sample urban and rural youth. However, these activities
were not the focal point of our audit.




9
 See figure 2 for details of the levels of participation for the 13 activity categories in our compilations based on the
number of participants for whom information was available.

                                                             16
We agree with ETA that many youth who do not go to college develop skills and learn trades
through working at jobs rather than through formal training. ETA also noted that many employers
are looking for individuals ready and willing to work whom the employers can then train on the job.
Further, ETA notes that most out-of-school youth coming to Youth Opportunity centers are
primarily seeking help to find a job and may not be interested in or realize the importance of formal
education and training. ETA stated that the program must encourage youth enrollment in education
or training but must balance that with personal preferences and individual choices.

Also, ETA encouraged us to take 31 youth who had no recorded services in the program out of the
sample. ETA stated that if these youth with no services are not included in the calculations, the
percentage of participants receiving education services increases from 38 percent to 45 percent.
ETA believes the results would more appropriately be “slightly more than half of the youth” did not
receive educational services. We randomly selected our sampled youth from the population of youth
who were reported to us as being enrolled in the program as of September 30, 2001, and having
received some service as of December 31, 2001. Therefore, we concluded that it was appropriate to
present the results for both the random selection of 207 out-of-school youth as well as for those 176
who actually received some services. Our presentation of results remains unchanged from the draft
report.




                                                 17
 2. Youth Ages 17 and Over: 59 Percent of Dropouts Received Educational Services; 26
    Percent of Youth with High School Diplomas/GEDs/Some College Received Vocational
    Training or Educational Assistance

 Because approximately 95 percent (168) of the 176 youth for whom we were able to evaluate
 services received were 17 years of age or older when enrolled, we specifically analyzed services to
 this group by the amount of education they had received prior to being enrolled. The grantees
 provided educational activities to a majority (59 percent) of the dropouts. Yet, the majority (60
 percent) of the individuals who had already completed high school, received a GED, or attended
 some college, received work readiness activities (work experience, OJT, or preemployment/world of
 work) as opposed to vocational training or educational assistance (26 percent).

 Figures 5 and 6, below, show the last school grade completed at enrollment by the urban youth’s age
 group at enrollment, with a similar presentation for rural youth, along side.


         Last Grade Completed by Age - 127 Urban                            Last Grade Completed by Age - 49 Rural
50                                                                     50
                          41
40                                                                     40


30                                                                     30
                               24

20                                      17
                                                                       20                        18
                                                                                   14
                                             11
10             67                                 6                    10
     4                2                                     3                                           5
         1                          2                 2 1                               4
                                                                             1 2            1                  1 1    2
0
                                                                       0
     Unk        8th       9 - 11         HS       GED       College
                                                                            8th     9 - 11            HS        GED   College

               19-22      17-18         15-16                                      19-22        17-18       15-16

                           Figure 5                                                             Figure 6

 Because most out-of-school youth -- 96 percent for urban grantees, 94 percent for rural grantees --
 were 17 years of age or older at time of enrollment, we prepared the following side-by-side
 comparison of how the urban and rural grantees served this group of participants




                                                                      18
                     Urban                                                Rural

Figure 5, above, shows that at the time of Youth    Figure 6, above, shows that at the time of Youth
Opportunity enrollments, 122 of the 127 urban       Opportunity enrollments, 46 of the 49 rural youth
youth (96 percent) were 17 years old or over of     (94 percent) were 17 years old or over of which:
which:
                                                        !"19 (41 percent) were dropouts
   !"78 (61 percent) were dropouts
                                                        !"27 (59 percent) completed high school,
   !"39 (31 percent) completed high school,               received a GED, or attended some college
     received a GED, or attended some
     college

   !"5 educational level unknown                    The rural grantees provided the following
                                                    educational activities to 11 of the 19 (58
The urban grantees provided the following           percent), age 17 and older, dropouts.
educational activities to 46 of the 78 (59
percent), age 17 and older, dropouts.                   !"3 returned to high school (15.8 percent)

   !"1 received college assistance (1.3                 !"8 others received remedial education
     percent)                                             assistance (42.1 percent)

   !"11 received vocational training (14.1
     percent)

   !"29 received remedial education assistance
     (37.2 percent)

   !"5 returned to high school (6.4 percent)        The rural grantees provided the following
                                                    vocational training or educational assistance to
The urban grantees provided the following           only 9 of the 27 (33.3 percent) youth, (age 17 and
vocational training or educational assistance to    older), who completed high school, received a
only 8 of the 39 (21 percent) youth, (age 17 and    GED, or attended some college:
older), who completed high school, received a
GED or attended some college:                           !"5 received educational assistance (18.5
                                                          percent)
   !"3 received college assistance (7.7
     percent)                                           !"4 received vocational training (14.8
                                                          percent)
   !"4 received vocational training (10.3
     percent)

   !"1 received remedial educational
     assistance (2.6 percent)




                                                   19
The grantees provided educational activities to a majority of the dropouts 17 years of age and older
(urban, 59 percent; rural 58 percent). Yet, the majority (60 percent) of the same aged individuals who had
had already completed high school, received a General Equivalency Diploma (GED), or attended some
college prior to being enrolled, received work readiness activities (work experience, on-the-job (OJT)
training, or preemployment/world of work) as opposed to vocational training or educational assistance (26
percent).

Almost 80 percent of the age 17 and older youth with a high school diploma, GED, or college
attendance at enrollment, who did not receive any educational or vocational training received the
following work readiness training.



         Work Readiness Activities for 49 Youth (Age 17 and Over) With High School
            or Above Who Did Not Receive Educational or Vocational Activities

                Urban (31 participants)                       Rural (18 participants)

        Activity             # of  Percent         Activity              # of     Percent
                             Youth                                       Youth

        Work Experience                          Work Experience
        or OJT                     3         9.7 or OJT                      15         83.3

        Preemployment            20         64.5 Preemployment                1             5.5

        Total                    23         74.2 Total                       16         88.9


ETA’s Response to Our Draft Report and OIG’s Conclusion

ETA sees these results regarding high school dropouts as very positive and consistent with what
local program operators have indicated – that high school dropouts want GED training and high
school graduates want jobs. While we agree with the response, our results also suggest that more
can be done to encourage high school graduates to obtain additional education or vocational training.




                                                 20
3. Most Sampled Youth Had Been Enrolled Long Enough To Be Actively Participating In
   Some Training Activities.

Most of the sample youth (131 of 176) were enrolled prior to July 1, 2001, with 45 of the 176 youth
from all 12 sites enrolled during the July 1 to September 30, 2001, quarter. This provided sufficient
time for youth to become involved in educational or vocational training activities and for these
activities to be documented. We compiled information on activities through December 31, 2001.


                                          YO Enrollment

              80                                                      61

              60                                            44                    45

              40
                                                 15
              20          3
                                     8


                0
                     Qtr 2 -    Qtr 3 -    Qtr 4 -     Qtr 1 -   Qtr 2 -    Qtr 3 -
                     2000       2000       2000        2001      2001       2001
                                               Figure 7

Although our assessment constitutes a snapshot perspective after 1½ year of program operations at
most of the 12 grantees, we believe that increased management efforts can significantly increase the
level of youth participation in vocational and educational activities.

ETA’s Response to Our Draft Report and OIG’s Conclusion

ETA noted that Youth Opportunity sites, for the most part, did not begin serving youth until the fall
of 2000. ETA also stated:

       The sample of youth in this study were enrolled during the first year of program
       operations, and services included in this report reflect only the first 16 months of
       operations. Further, because six of the seven sites that had prior pilot grants were
       excluded from this study, the study is left with a sample frame of the 30 most
       inexperienced sites. You note in your report that it was premature at the time of
       your study to examine outcomes for youth. We all may need to recognize that it
       was also probably premature at the time of your study to examine the types of
       services provided to youth because sites were still developing their programs and
       implementing their Management Information Systems.

Also, ETA notes that with various management efforts and the additional time for sites to
develop, a more mature program exists than during the time period of the study.


                                                  21
We agree that the audit results reflect conditions at the time of our random selection of
youth for review and related analysis of grantee files.




                                               22
4. Performance Data Available to ETA Could Be Unreliable


While determining the accuracy of Youth Opportunity grantees’ participant records was not an
objective of this audit, we identified inconsistencies in the records grantees provided related to out-
of-school youth enrolled in the program. The scope of our audit did not include any direct
verification of the accuracy of management information system (MIS) data. But, during the course
of our work we were provided participant information that suggested that the performance data
available to ETA could be unreliable.

Our conclusion is based, in part, on the fact that the enrolled, out-of-school youth participant
universes we requested varied significantly among the 12 grantees we examined. We concluded:

   A. It was impracticable to sample a consistently defined universe.

   B. About 26 percent of the 240 participants in our original sample were not enrolled, out-of-
      school youth.

   C. ETA’s definition of enrollment, based on the WIA definition for Out-of-School Youth, is
      complicated and unworkable.

The following table (figure 8) shows the variety of OSY enrollment universe numbers we obtained.
The last column shows the universes the grantees provided to us at the beginning of our fieldwork
which we used to select a random sample of 20 youth from each grantee.




                                                   23
                                                       Universe Source
                                            ETA           ETA’s MIS          Grantee
                                                          Contractor
                                                           OSY with        OSY enrolled by
                                                            Activity        9/30/01 with
                                        OSY Reported        through           Activity
                                         on 9/30/01        12/31/01         by 12/31/0110
                                1
                                                   348             298              41011
                                2
                                                    44             123              28911
                                3
                                                   178             179              26411
                                4
                                                   277             117              27211
                                5
                                                   454             458              50211
                                6
                                                   200             137              15011
                                7
                                                   821             575              72111
                                8
                                                    58             205              19811
                                9
                                                   607               42             58712
                               10
                                                    78               44               9312
                               11
                                                      -                -            78811
                               12
                                                      -                -              8513
                                                       Figure 8


     A. It was impracticable to sample a consistently defined universe.

Our audit objective was to determine the types of educational services and vocational skills training
being provided to out-of-school youth under the Youth Opportunity grant program. We attempted to
identify this population by using the central MIS maintained by an ETA contractor.

However, based on concluding that the central MIS was not fully updated for active OSY enrollees,
we requested that the grantees provide to us either a list of active OSY enrollees as of September 30,
2001, or a list of those OSY enrolled by September 30, 2001, who had participated in a program


10
   The process used by the grantees to determine the population of out-of-school youth who had been enrolled by
   September 30, 2001, and received services by December 31, 2001, varied from site to site. Therefore, the
   populations we sampled were not consistent.
11
   Number of youth listed, who were active as of September 30, 2001.
12
   Number of youth listed, showing participation as of December 31, 2001.
13
   Number of youth listed, showing participation as of September 30, 2001.

                                                          24
activity by December 31, 2001. Even then, we found the populations we sampled were not totally
consistent.

According to the MIS criteria provided by ETA, enrollees should be retained in the active status
category for 12 months following the date of last participation in a program activity, as long as the
individual lives in or close enough to the target area to participate in the program. By ETA’s
definition, active status is not dependent on whether or not the enrollee is actively participating in a
current program activity.


     B. About 26 percent of the 240 participants in our original sample were not enrolled, out-
        of-school youth.

Figure 9, below, shows the makeup of our initial sample of 240 enrollees who were reported to us as
being enrolled, out-of-school youth.

                                         Sample Determination



                                           33                               Valid OSY

                                    31
                                                                            Not fully Enrld

                                                    176                     Enrld-Not OS




                                                          Figure 9

As figure 9 shows, 64 sample individuals - about 26 percent - from the initial sample of 240
participants did not meet the criteria for our planned objective of evaluating services to out-of-school
youth:

     !"31 youth (12.9 percent) were not enrolled according to the criteria prescribed for the ETA-
       maintained (and contractor-operated) MIS system.14 As of December 31, 2001, more than
       half of these 31 individuals had applications that were more than 6 months old but had not
       received any services.

     !"33 youth did not meet ETA’s MIS definition of out-of-school youth.

The remaining 176 sample individuals were classified as enrolled out-of-school youth.


14
  The “Glossary of Key Terms” for the Youth Opportunity grants obtained from ETA in November 2001 defines
“Enrollment” as the status of a youth who has completed the administrative registration process and has commenced
his/her first service.

                                                          25
Other details regarding the enrollment status of the OSY sample individuals are shown in the
following table.

                               Meet ETA Definition For OSY?
                                   No                Yes                    Total
                             Number Percent Number Percent             Number Percent
            Meet ETA
           Definition for
           Enrollment?
                No                11      4.6%         20      8.3%         31       12.9%
               Yes                33     13.8%        176     73.3%        209       87.1%
                     Total        44     18.3%        196     81.7%        240        100%
                                             Figure 10

The variation between the universes, from the alternative sources, and the number of sampled
enrollees who did not meet the definitions for enrolled and/or OSY suggests a need for better grantee
and ETA management to improve operations of the Youth Opportunity program. Improvements are
needed in:

           !"Reports submitted to ETA
           !"Records maintained by ETA’s contractor for the central MIS
           !"Records maintained by the grantees

Our conclusion is primarily based on our analysis of the random sample we selected from the
universe obtained directly from the Youth Opportunity grantees. Further, our review confirms that
the definitions established for the OSY and performance reporting process, based on the central MIS,
are not working as intended.


   C. The ETA definition of enrollment, based on the WIA definition for Out-of-School
      Youth, is complicated and unworkable.

The first Youth Opportunity service, based on ETA’s definition of enrollment, could be an
individual assessment and the subsequent development of an individual service strategy. Our
conclusion that a significant number of sample youth were not enrolled indicates that more careful
and accurate record keeping is needed to better assess the number and status of the individual youth
in the Youth Opportunity program.

In our opinion, the MIS Glossary provides an unnecessarily complicated and unworkable definition
for those out-of-school youth who graduated from high school. The ETA definition, which is based
largely on the WIA definition for out-of- school youth, states that:




                                                 26
   •   High school graduates who are basic skills deficient and who are attending post-secondary
       school should be classified as out-of-school youth.

   •   High school graduates who are not attending post-secondary school but are either basic-skills
       deficient, unemployed, or underemployed are to be classified as out-of-school youth.

   •   High school graduates who are not attending college; are not basic-skills deficient; and are
       employed, but not underemployed, are classified as in-school youth.

This definition is apparently so complex and difficult to properly apply that it has caused
inconsistencies among the various grantee entities in their reporting of performance results. ETA
states that the suggestion in the MIS Glossary that employed high school graduates that are not
attending school could be classified as in-school youth was an oversight that will be corrected. ETA
assumes that all enrolled high school graduates that are working will be considered as
underemployed, and; therefore, classified as out-of-school, based on the WIA definition.

At only 1 of the 12 audit sites did all 20 randomly selected out-of-school youth meet the ETA
established criteria for complete enrollment and out-of-school status at the time of enrollment.
Accordingly, ETA needs to reassess its definitions and work to increase the level of understanding
by grantees of the criteria applicable for reporting Youth Opportunity enrollee status.

The complexity and problems with the WIA/ETA definition for OSY are illustrated by the flowchart
in Appendix B. To further complicate this issue, some local grantees maintain their own definitions
for OSY. This indicates that there may be some differences between ETA’s MIS and the actual laws
governing the Youth Opportunity program.

In revising its definitions for the Youth Opportunity grant program, ETA should keep in mind that
all youth from the target area are eligible for the Youth Opportunity program. Thus, the distinction
between in-school and out-of-school youth should be clearly defined and administratively simple to
implement.

ETA’s Response to Our Draft Report and OIG’s Conclusion

ETA responded that over the past year it has made intensive efforts to improve the MIS data of
Youth Opportunity sites. As a result of its efforts, ETA believes the MIS is now much stronger for
the grants we examined during our performance audit. We applaud ETA for its efforts to strengthen
the MIS.




                                                 27
                                 RECOMMENDATIONS
We recommend the Assistant Secretary for Employment and Training:

   !"consider strengthening the educational and vocational training activities for high school
     graduates,

   !"establish procedures to terminate those out-of-school youth classified as active, but who are
     not participating in any program activities and have not expressed an interest in continuing
     the program;

   !"correct definitions in the MIS and propose legislative changes during the WIA
     reauthorization process, if needed, to provide a more straight forward definition for out-of-
     school youth that are expected to be served by the Youth Opportunity grantees; and

   !"assess the accuracy of performance reporting from Youth Opportunity grantees and develop
     procedures to correct inaccurate reporting that is identified.

ETA’s Response and OIG’s Conclusion

ETA agreed with the four recommendations and indicated current efforts will be enhanced to
improve the program. The response states that ETA is working with sites to improve their education
components. Additionally, ETA indicates that procedures are now in place for “inactivating” youth
who are not participating in program activities, and efforts are being made to help sites find ways of
reengaging youth who are currently not participating. These actions are all positive on ETA’s part to
strengthen the program.




                                                 28
                                                                                              Appendix A

               OIG’s Classification of Activities for 176 Sampled Out-of-School Youth
                         (Percentages Shown in Relation to all 176 Youth)
                                        Type of Site
Activities                 Rural (49 Youth)     Urban (127 Youth)               Total(Rural& Urban)
                                    Percent of 176             Percent of 176             Percent of 176
                           Number    Total Youth      Number    Total Youth      Number    Total Youth
1. Remedial Classes
                              10        5.7%              40      22.7%             50       28.4%
2. Vocational Training
                               6        3.4%              15       8.5%             21       11.9%
3. Supportive Services
                              12        6.8%              58      33.0%             70       39.8%
4. Paid Work. Experience
                              25       14.2%              10       5.7%             35       19.9%
5. Pre-Employment/
World of Work                 31       17.6%              76      43.2%             107      60.8%
6. Stipends
                               7        4.0%              8        4.5%             15        8.5%
7. College
                               5        2.8%              4        2.3%              9        5.1%
8. HS/Alternative HS
                               4        2.3%              6        3.4%             10        5.7%
9. Unpaid Work
Experience                     7        4.0%              1        0.6%              8        4.5%
10. Incentives
                               3        1.7%              5        2.8%              8        4.5%
11. Tutoring
                               2        1.1%              3        1.7%              5        2.8%
12. Pre-Apprenticeship
                                .         .               3        1.7%              3        1.7%
13. OJT
                               1        0.6%              1        0.6%              2        1.1%




                                                     29
                                                                             Appendix B


                     OIG’s Flowchart Illustrating the Determination of OSY




OSY = Out-of-School Youth
ISY = In-School Youth
Not BS Defic = Not Basic Skills Deficient




                                              30
                                                                                          Appendix C
                                                                                          Page 1 of 2

             OIG’S CLASSIFICATION OF ACTIVITY GROUP COMBINATIONS

         1. Services to Urban Out-of-School Youth

The table, below, illustrates the number of urban youth involved in each activity group –
vocational, educational, work readiness, support/incentives. A youth is counted only once in the
table, allowing for the display of combinations of activities. Participants are counted in an activity
group if they received one or more of the specific activities within that activity group.


                                    Activity Groups
                              For 127 Sample Urban Youth
                                            Work Readiness Activity
                                          No                    Yes
                                   Support/Incentives   Support/Incentives
                                     No        Yes       No         Yes                   Total
                                     #           #        #          #                      #
    Voc./Tech.    Educational
                  Activity
    No            No                      16            6          30             19             71
                  Yes                      8            7           7             19             41
    Yes           No                       1            5           1              2              9
                  Yes                                   2                          4              6
    Total                                 25           20          38             44            127


The table above shows that of the 127 urban youth participant sample:

   !"71 youth (56 percent) did not receive vocational or educational training activities, of
     which:

            o 16 (12.6 percent) did not receive any program services
            o 6 (17.3 percent) did not receive any service other than support/incentives

   !"82 youth (64.6 percent) participated in work readiness activities:

            o 38 (29.9 percent) without support/incentives and 44 (34.5 percent) with
              support/incentives
            o 49 (38.6 percent) without vocational skill or educational training, and 33 (26.0
              percent) with vocational skill or educational training




                                                  31
                                                                                            Appendix C
                                                                                            Page 2 of 2

            OIG’S CLASSIFICATION OF ACTIVITY GROUP COMBINATIONS

       2. Services to Rural Out-of-School Youth

The table, below, provides the number of rural youth involved in each activity group. As with the
urban youth, a youth is counted only once in the table, allowing for the display of combinations of
activities; i.e., an individual is counted in an activity group if he/she received any of the specific
activities within that category.

                                     Activity Groups
                                For 49 Sample Rural Youth
                                            Work Readiness Activity
                                          No                     Yes
                                   Support/Incentives    Support/Incentives
                                    No         Yes        No          Yes                    Total
                                     #          #          #            #                     #
   Voc./Tech. Educational
               Activity
   No         No                          7              1            15              3              26
              Yes                                        1             6             10              17
   Yes        No                          1              1             2              1               5
              Yes                                                                     1               1
   Total                                  8              3            23             15              49


The table, above, indicates that 26 of the 49 rural youth (53 percent) did not receive any vocational
or educational activities, including 7 youth (14.3 percent) who also did not receive any work
readiness activities.

Other highlights from this table are:

   !"6 of the 49 youth (12.2 percent) received some type of vocational/technical training.

   !"38 of the 49 youth (77.5 percent) received some type of work readiness activity: 15 with
     support/incentives and 23 without. Also, of the 38 youth who received work readiness
     services, 17 received educational activities and 4 received vocational activities.




                                                   32
            APPENDIX D
ETA’S RESPONSE TO THE DRAFT REPORT




               33
34
35
36
37
